<html>
<title> - NOMINATION OF E. SEQUOYAH SIMERMEYER TO BE CHAIRMAN OF THE NATIONAL INDIAN GAMING COMMISSION, U.S DEPARTMENT OF THE INTERIOR</title>
<body><pre>[Senate Hearing 116-50]
[From the U.S. Government Publishing Office]


                                                      S. Hrg. 116-50

  NOMINATION OF E. SEQUOYAH SIMERMEYER TO BE CHAIRMAN OF THE NATIONAL 
        INDIAN GAMING COMMISSION, U.S DEPARTMENT OF THE INTERIOR

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 24, 2019

                               __________

         Printed for the use of the Committee on Indian Affairs

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-479 PDF                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="76061936150305021e131a065815191b58">[email&#160;protected]</a>        







                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
LISA MURKOWSKI, Alaska               JON TESTER, Montana,
JAMES LANKFORD, Oklahoma             BRIAN SCHATZ, Hawaii
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MARTHA McSALLY, Arizona              TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 24, 2019....................................     1
Statement of Senator Barrasso....................................    31
Statement of Senator Cortez Masto................................    32
Statement of Senator Hoeven......................................     1
Statement of Senator Tester......................................    29
Statement of Senator Udall.......................................     2

                               Witnesses

Simermeyer, E. Sequoyah, Nominated to be Chairman of the National 
  Indian Gaming Commission.......................................     3
    Prepared statement...........................................     5

                                Appendix

Letters of support submitted for the record 


Response to written questions submitted to E. Sequoyah Simermeyer 
  by:
    Hon. Catherine Cortez Masto..................................    47
    Hon. Tom Udall...............................................    48

 
  NOMINATION OF E. SEQUOYAH SIMERMEYER TO BE CHAIRMAN OF THE NATIONAL 
                     INDIAN GAMING COMMISSION, U.S 
                       DEPARTMENT OF THE INTERIOR

                              ----------                              


                        WEDNESDAY, JULY 24, 2019


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:37 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. Good afternoon. We will now call this 
nomination hearing to order.
    Indian gaming has been an economic benefit for Indian 
Country. According to the Congressional Research Service, since 
1996, approximately $565 billion has been generated in revenue 
for gaming tribes. Indian gaming creates jobs, which is a 
catalyst for economic development and supplements essential 
tribal government services.
    In 1998, the Indian Gaming Regulatory Act, also known as 
IGRA, established the National Indian Gaming Commission as an 
independent regulatory agency within the Department of the 
Interior. The National Indian Gaming Commission is responsible 
for regulating Class II Indian gaming and overseeing Class III 
gaming. It is comprised of three members: the chairman and two 
associate commissioners. The chair is nominated by the 
President and confirmed by the Senate. Associate commissioners 
are appointed by the Secretary of the Interior.
    According to the most current data available from the 
National Indian Gaming Commission in 2017, Indian gaming gross 
revenues topped $32.4 billion. The National Indian Gaming 
Commission oversees 512 gaming facilities operated by 246 
Indian Tribes located in 29 States.
    The Commission needs to be appropriately staffed, including 
having a confirmed chairman, so that it may fulfill its duties 
and responsibilities as outlined by the Indian Gaming 
Regulatory Act. On June 26th, 2019, President Trump announced 
E. Sequoyah Simermeyer as his nominee for chairman of the 
National Indian Gaming Commission. Mr. Simermeyer is a member 
of the Coharie Indian Tribe of North Carolina and currently 
serves as Associate Commissioner at the National Indian Gaming 
Commission.
    He received his bachelor's degree from Dartmouth College, 
and I commend you on that. I suppose maybe if it had been New 
Mexico State, that would have been even better but Dartmouth 
was a good pick.
    [Laughter.]
    The Chairman. He received his master's degree from Vermont 
Law School and his juris doctorate from Cornell Law School. We 
are willing to overlook that, Cornell. That is great too. You 
know I am kidding.
    Mr. Simermeyer has held a number of government, cultural, 
and legal positions. While working at the Department of the 
Interior, he served as a detailee for the Senate Committee on 
Indian Affairs, working for my current staff director, Mike 
Andrews. Mr. Simermeyer has received letters of support from 
several tribes which have been included for the record.
    I look forward to hearing from Mr. Simermeyer about his 
vision for leading the NIGC, and to have this panel favorably 
report Mr. Simermeyer's nomination in due order.
    Welcome. We look forward to your testimony but before 
turning to that, I would like to ask Vice Chairman Udall for 
his opening comments.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman, for holding this 
nomination hearing today.
    Congratulations to you, Mr. Simermeyer, on being nominated 
to serve as the chairman of the Indian Gaming Commission. Your 
background and experience as a public servant is commendable 
for your work at the Department of the Interior to your work on 
this Committee, and now your current position with the 
commission.
    I have no doubt that your family is very proud of your 
nomination. It is an important one. The chair of the NIGC has a 
number of statutory powers that are critical to the regulation 
of Indian gaming: the power to approve tribal Class II and 
Class III gaming ordinances or resolutions; the power to impose 
fines and order the temporary closure of gaming facilities; and 
the power to approve management contracts.
    That is why I am particularly interested in learning today 
about your policy views on Indian gaming, how you see the role 
of the NIGC chair and the direction you would take the agency 
if confirmed. Now, perhaps more than ever, it is imperative 
that leaders at independent Federal agencies, like the NIGC, 
are able to do their jobs free from undue political influence, 
free from nepotism, and free from corrupting outside 
influences.
    The Indian Gaming Regulatory Act, in particular, 
established the NIGC as an independent Federal regulatory 
authority for gaming on Indian lands. The chair must be willing 
to be a fierce advocate for tribes and to fight to maintain 
NIGC's independence. So I am also interested today to learn 
more about your plans, if confirmed, to ensure and maintain the 
integrity of the agency you serve.
    Finally, if confirmed as chair, it will be critical that 
you acknowledge that the NIGC's primary stakeholders are Indian 
tribes. I am hopeful that during today's hearing and in the 
days and weeks that follow, you will be able to give this 
Committee sufficient assurances that you are willing to share a 
clear policy vision for the agency, fight to maintain its 
independence, and ensure that tribes' best interests are in the 
forefront of your decision-making.
    Thank you very much, Mr. Chairman.
    The Chairman. Do other members have opening statements they 
wish to make? All right, with that, we will proceed.
    We will begin by swearing the witness. Mr. Simermeyer, 
please rise and raise your right hand.
    Do you solemnly affirm that the testimony you shall give 
today shall be the truth, the whole truth and nothing but the 
truth, under the penalty of perjury?
    Mr. Simermeyer. I do.
    The Chairman. Thank you. You can be seated.
    I want to remind the nominee that your full written 
testimony will be made a part of the official record.
    With that, welcome. You can proceed with your opening 
statement.

 STATEMENT OF E. SEQUOYAH SIMERMEYER, NOMINATED TO BE CHAIRMAN 
                 OF THE NATIONAL INDIAN GAMING 
                           COMMISSION

    Mr. Simermeyer. Good afternoon, Chairman Hoeven, Vice 
Chairman Udall, members of the Committee. Thank you for this 
opportunity to discuss my interest and willingness to serve as 
the chairman of the National Indian Gaming Commission.
    My wife, children, brother, sister, and parents are with me 
today. My family has given me a strong sense of my culture and 
my Christian faith. They inspire me every day to appreciate the 
value of serving others.
    My parents, Ed and Lillian Simermeyer, have given me a 
strong connection with my family, including those that live 
throughout my Coharie Tribes homelands in eastern North 
Carolina in Harnett County and my family on my mother's side, 
who live throughout northern New Mexico and Colorado's San Luis 
Valley.
    My wife, Genevieve Simermeyer, is from the Osage Tribe of 
northeastern Oklahoma. We are proud to be raising our two 
daughters, Adeline and Analicia, and our newborn son, Philip, 
with the same appreciation for spiritual values and cultural 
traditions that we have both been blessed to know.
    I am also grateful for my brother, John Simermeyer, and my 
sister, Portia Simermeyer, who are here today as well. My 
brother, James, his wife, Susie, and their four-week old son, 
Sam, couldn't be here today but are supporting me with their 
prayers, and I appreciate that. Thank you for allowing me the 
chance to introduce my family.
    The Chairman. Is that possibly them over here?
    Mr. Simermeyer. It is, yes.
    The Chairman. Go ahead and introduce them all, so we can 
nail down who is who.
    Mr. Simermeyer. I appreciate that. They are my father, Ed 
and my wife, Genevieve.
    The Chairman. He is a big guy too, isn't he?
    Mr. Simermeyer. He is a big guy. He is a good guy. We have 
our son, Philip, who is eight weeks old; our oldest daughter, 
Adeline; our younger daughter, Analicia; my sister, Portia; and 
my mother, Lillian.
    The Chairman. Who is the guy on the end there?
    Mr. Simermeyer. That is my brother, John.
    The Chairman. I would ask security to keep a close eye on 
him.
    [Laughter.]
    The Chairman. It is great to have you all here. Thanks for 
being here.
    Mr. Simermeyer. Thank you, Mr. Chairman and Vice Chairman 
Udall, for the chance to introduce them. I appreciate that.
    When blessed with opportunities to serve others, I have 
strived to be ready and well prepared. My academic pursuits and 
professional endeavors have focused on public service, 
especially in service to Native people.
    I learned the value of teamwork, persistence and discipline 
through athletics and my experiences have also proven to me the 
value of inter-tribal collaboration. I have been part of the 
traditional spirit of collaboration this Committee is known 
for, and that has historically benefited American Indian, 
Alaska Native, and Native Hawaiian people. I have subscribed to 
the same collaborative spirit in my work at the National Indian 
Gaming Commission.
    Any National Indian Gaming Commission chairman must carry 
out the Indian Gaming Regulatory Act as enacted by Congress. 
Doing so supports the Commission's role in meeting the Indian 
Gaming Regulatory Act's policy objectives and thereby helps to 
improve lives in tribal communities.
    Since beginning my term in 2015, it has been important to 
me that I work closely with tribal regulatory bodies and tribal 
leadership. Collaboration with tribes helps the National Indian 
Gaming Commission in their decision-making to account for 
tribes' regulatory expertise.
    I also have advocated for the National Indian Gaming 
Commission's decision-making processes to be diplomatic. Our 
decisions are diplomatic when we respect tribes' inherent 
authority to develop relationships with other governments. This 
authority is an invaluable tool every government uses to 
articulate and realize its vision for the people it serves.
    Finally, I have worked collaboratively with my colleagues 
on the Commission to follow the comprehensive structure that 
lawmakers established under the Indian Gaming Regulatory Act. 
For more than 30 years, lawmakers' deliberations with tribes' 
input and effort have given shape to the unprecedented 
opportunity for Indian Country success that is made possible by 
tribal gaming.
    The tribal gaming industry represents an American success 
story and demonstrates the tribal governments' ability to 
govern well. For many tribal communities and their neighbors, 
the industry represents the lifeblood necessary for community 
operations, robust engagement with tribal members and 
neighboring jurisdictions, and job opportunities for tribal and 
non-tribal members alike. It is an essential part of many 
tribal governments' modern regulatory systems, and Indian 
gaming is an anchor point for many tribes' effective 
intergovernmental relationships with other tribes, with States 
and our Federal partners.
    If confirmed, there are four areas I believe the National 
Indian Gaming Commission has the opportunity to emphasize as it 
builds on its ongoing work, its existing strategic plan and the 
hard work of the many thousands of frontline tribal regulators 
in Indian Country. My written testimony discusses emphasis 
areas, and I am happy to discuss those more today. Those areas 
are integrity, preparedness, accountability, and outreach.
    In closing, Indian Country's advancement toward regaining 
greater self-sufficiency through gaming has been to everyone's 
benefit. Gaming operations, regulated under the Indian Gaming 
Regulatory Act, make a growing contribution to a strong 
national economy and as an intergovernmental partner with 
tribes, and as a Federal regulatory authority. The NIGC has the 
opportunity both to protect each tribe's investment in pursuit 
of economic success through gaming and to help promote strong 
tribal regulatory systems. This is an opportunity made clear in 
the Indian Gaming Regulatory Act's mandate.
    If given the honor of serving as the National Indian Gaming 
Commission's chairman, I will work every day to preserve this 
opportunity by leading the agency's efforts to ensure tribal 
assets are protected and sound industry regulation and 
oversight are promoted.
    Thank you for your time today. I am happy to answer any 
questions you might have.
    [The prepared statement and biographical information of Mr. 
Simermeyer follow:]

Prepared Statement of E. Sequoyah Simermeyer, Nominated to be Chairman 
                of the National Indian Gaming Commission
    Chairman Hoeven, Vice Chairman Udall, Members of the Committee, 
thank you for providing me this opportunity to discuss my interest and 
willingness to serve as Chairman of the National Indian Gaming 
Commission. I am humbled and honored that the President has nominated 
me to serve. If confirmed, I intend to diligently work to maintain the 
President's confidence, your support, and the trust of the tribal 
gaming industry and general public to the best of my abilities.
    My wife, children, brother, and parents are with me today. My 
parents, Ed and Lillian Simermeyer, have given me a strong sense of 
cultural identity and my faith. They have given me a connection with my 
father's maternal Brewington family in my Coharie Tribe's traditional 
homelands in eastern North Carolina; as well as my Vigil and Romero 
family on my mother's side, who live today and have lived for many 
generations in northern New Mexico. They have instilled in me my 
invaluable Christian faith and an appreciation for the value of serving 
others. My wife, Genevieve Simermeyer, is a remarkable person and a 
member of the Osage Tribe from northeastern Oklahoma. My wife and I are 
proud to be raising our two daughters, Adeline and Analicia, and our 
new born son, Philip, with the same appreciation for spiritual values 
and cultural traditions that we have been blessed to know. And I am 
grateful for my brother, John Simermeyer, who is here today. My sister, 
Portia Simermeyer, and my brother, James, his wife, Susie, and their 
new born son, Sam, could not be here today but are supporting me with 
their prayers. Thank you for allowing me the chance to introduce my 
family. They inspire and support me in countless ways.
    When blessed with opportunities to serve others, I have strived to 
be ready and well prepared. My academic pursuits and professional 
endeavors have focused on public service especially in service to 
Native people. I have learned the value of teamwork, persistence and 
discipline through athletics, including my life-long involvement in the 
sport of lacrosse. My experience has also proven to me the value of 
inter-tribal collaboration. I have been part of the traditional spirit 
of collaboration this Committee is known for and that has historically 
benefited American Indian, Alaska Native, and Native Hawaiian peoples. 
And, I have subscribed to the same collaborative spirit in my work at 
the National Indian Gaming Commission.
    Essential to meeting a National Indian Gaming Commission Chairman's 
responsibility is his or her role in carrying out the Indian Gaming 
Regulatory Act. As a current member of the National Indian Gaming 
Commission, I have been honored to support the Commission's role in 
meeting the Indian Gaming Regulatory Act's policy objectives and 
thereby helping to improve lives in tribal communities.
    Since beginning my term in 2015, it has been important to me that I 
work closely with tribal regulatory bodies and tribal leadership so 
that any National Indian Gaming Commission decision accounts for 
tribes' regulatory expertise. The tribal regulators spend every day in 
the facilities they regulate and their knowledge and experience is a 
great resource to the Commission. I also have advocated for the 
National Indian Gaming Commission's decisionmaking processes to be 
diplomatic and to respect tribes' inherent authority to develop 
relationships with other governments. This authority is an invaluable 
tool every government uses to articulate and realize its vision for the 
people it serves. Finally, I have worked collaboratively with my 
colleagues on the Commission to follow the comprehensive structure that 
lawmakers established under the Indian Gaming Regulatory Act. For more 
than thirty years, lawmakers' deliberations with tribes' input and 
effort have given shape to the unprecedented opportunity for success in 
Indian country made possible by tribal gaming.
    The tribal gaming industry represents an American success story and 
demonstrates the depth of tribal governments' ability to serve their 
people. Indian gaming's gross gaming revenue in Fiscal Year 2017 
generated over 32 billion dollars. For many tribal communities and 
their neighbors, the industry represents the lifeblood necessary for 
community operations, robust engagement with tribal members and 
neighboring jurisdictions, and job opportunities for tribal and non-
tribal members alike. It is an essential part of many tribal 
governments' modern regulatory systems. And, Indian gaming is an anchor 
point for many tribes' effective intergovernmental relationships with 
other tribes, the states and federal partners.
    If given the opportunity to help lead the National Indian Gaming 
Commission as its chairman, I will work with my colleagues on the 
Commission, with tribal governments, with leadership across all 
regulatory bodies involved in the Indian gaming industry, and with 
other industry stakeholders. I will also make it a priority for the 
National Indian Gaming Commission to support Congress' work and 
legislation as enacted with regard to the Indian Gaming Regulatory Act 
and other laws applicable to the National Indian Gaming Commission's 
work. Through this collaboration and support for lawmakers' direction, 
the National Indian Gaming Commission will help perpetuate Indian 
gaming's continued success through sound regulation and oversight.
    There are four areas the National Indian Gaming Commission has the 
opportunity to emphasize as it builds on its ongoing planning efforts, 
including its strategic plan. Those emphasis areas are integrity, 
preparedness, accountability, and outreach.
Integrity
    Protecting tribal assets and the reputation of the gaming industry 
from which those assets derive is what the National Indian Gaming 
Commissions' dedicated staff do every day. Since being appointed to the 
Commission, I often see the unsung expertise of the NIGC's strong and 
dedicated workforce. In partnership with the regulatory community, with 
public policy makers, and with the gaming industry; the NIGC team works 
to help cultivate a strong regulatory environment at the over 240 
tribes with over 500 gaming operations on Indian land in 29 States.
    If given the opportunity to serve as the NIGC chairman, I intend to 
explore the opportunity to broaden partnerships in the regulatory and 
law enforcement community; to invest in tools that will help ensure 
tribes' capacity to assess risk and thereby mitigate threats to an 
operation, its customers, and the tribal members that rely on gaming 
resources; and to promote a compliance strategy that uses proven 
training and technical assistance and does not hesitate to bring well-
articulated, timely, and defensible enforcement actions in order to 
help safe guard the industry's reputation for sound regulation.
Preparedness
    The National Indian Gaming Commission is uniquely positioned to 
assist tribes to protect against threats and to take advantage of 
opportunities for economic success. These threats and opportunities 
vary among tribes and can be unique to different parts of Indian 
country. By facilitating partnerships and by promoting knowledge about 
best practices, the NIGC supports tribes' efforts to effectively 
prepare their operations and regulatory bodies for the future.
    If given the opportunity to serve as Chairman, I intend to work 
with tribes at both the tribal level and national level to assist 
tribes in leveraging their regulatory bodies' risk assessment skills 
and subject matter expertise to help tribal policy makers to prioritize 
challenges that may exist to the continuity of a tribe's gaming 
operations and its emergency preparedness in areas such as environment, 
health, and public safety. I would explore the opportunity to develop 
partnerships among sister federal agencies to help inform local level 
discussions in these areas. I also would work in coordination with my 
colleagues to identify best practices and emerging trends to ensure 
support for tribal economic development, self-sufficiency, and the 
integrity of tribal gaming.
Accountability
    When lawmakers established the National Indian Gaming Commission, 
the Indian Gaming Regulatory Act expected that sound governance 
practices at the federal level would assist the Indian gaming 
industry's growth. Through its planning and reporting tools, the 
National Indian Gaming Commission has the opportunity to promote the 
federal operations' ability to engage with and maintain the trust of 
the tribal governments and the regulatory communities the National 
Indian Gaming Commission works in partnership with and serves.
    If given the opportunity to serve as Chairman, I intend to work 
with my fellow commissioners to identify opportunities to develop more 
public facing platforms to encourage predictability and transparency in 
NIGC's recurring processes. It is my hope that this engagement will 
promote accountability, generate more robust Commission planning, and 
encourage predictability in the Commission's policy development and 
thereby minimize any unintended impacts of NIGC policy on the tribal 
gaming industry. Efforts to promote NIGC's accountability will save 
resources, forecast policy formation, grow a strong federal team, and 
support tribes' cultivation of a ready industry workforce.
Outreach
    The National Indian Gaming Commission is a federal body with 
independent investigative powers and civil enforcement authority over 
gaming on Indian land. It has a unique body of national expertise and 
insight into tribal gaming's impact on tribal economies, industry 
innovation, and tribal governments' regulatory capacities. The National 
Indian Gaming Commission's authority and expertise provides it with the 
opportunity to engage in outreach and education efforts at the national 
level that will promote industry integrity. Furthermore, its solemn 
responsibility as a federal entity obliges the National Indian Gaming 
Commission to develop policy informed by government-to-government 
consultation with tribes.
    If given the opportunity to serve as Chairman, I would work with my 
colleagues to build on the Commission's outreach efforts and ensure 
that the Commission's commitment to consultation with tribal 
governments is efficient and effective. The National Indian Gaming 
Commission has the opportunity to provide more regular outreach that 
will educate the public about the comprehensive regulatory system that 
oversees tribal gaming, and can identify research and data that will 
help focus national or local level discussions that take up issues 
related to the regulation of tribal gaming. Finally, we have the 
opportunity to make consultation more cost effective and accessible for 
tribal leadership. By taking a fresh look at technology and planning 
tools, the Commission can innovate and maintain a commitment to 
diplomatic intergovernmental relationships.
    Indian country's advancement toward regaining greater self-
sufficiency through gaming has been to everyone's benefit. Gaming 
operations regulated under the Indian Gaming Regulatory Act make a 
growing contribution to a strong national economy. As a federal 
regulatory authority and an inter-governmental partner with tribes, the 
NIGC has the opportunity both to protect each tribe's investments in 
the pursuit of economic success through gaming and to help promote 
strong tribal regulatory systems. This is an opportunity made clear in 
the Indian Gaming Regulatory Act's mandate. If given the honor of 
serving as the National Indian Gaming Commission's Chairman, I will 
work every day to preserve this opportunity by leading the agency's 
efforts to ensure tribal assets are protected and sound industry 
regulation and oversight are promoted.
    Thank you for your time today. I am happy to answer any questions 
you may have.
                                 ______
                                 
                                 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                              June 28, 2019
Scott A. de la Vega,
Designated Agency Ethics Official and Director, Departmental Ethics 
Office,
U.S. Department of the Interior,
Washington, DC.

Dear Mr. de la Vega:

    The purpose of this letter is to describe the steps that I will 
take to avoid any actual or apparent conflict of interest in the event 
that I am confirmed for the position of Chairman, National Indian 
Gaming Commission, U.S. Department of the Interior.
    As required by 18 U.S.C.  208(a), I will not participate 
personally and substantially in any particular matter in which I know 
that I have a financial interest directly and predictably affected by 
the matter, or in which I know that a person whose interests are 
imputed to me has a financial interest directly and predictably 
affected by the matter, unless I first obtain a written waiver, 
pursuant to 18 U.S.C.  208(b)(l), or qualify for a regulatory 
exemption, pursuant to 18 U.S.C.  208(b)(2). I understand that the 
interests of the following persons are imputed to me: any spouse or 
minor child of mine; any general partner of a partnership in which I am 
a limited or general partner; any organization in which I serve as 
officer, director, trustee, general partner or employee; and any person 
or organization with which I am negotiating or have an arrangement 
concerning prospective employment.
    Upon confirmation, I will resign from my position with Southern 
Lacrosse Officials Association. For a period of one year after my 
resignation from this entity, I will not participate personally and 
substantially in any particular matter involving specific parties in 
which I know that entity is a party or represents a party, unless I am 
first authorized to participate, pursuant to 5 C.F.R.  2635.502(d). I 
may accept payment of referee fees earned prior to my confirmation, but 
the amount of any such fees will be fixed before I assume the duties of 
the position of Chairman of the National Indian Gaming Commission. 
Until I receive these payments, I will not participate personally and 
substantially in any particular matter that to my knowledge has a 
direct and predictable effect on the ability or willingness of the 
Southern Lacrosse Officials Association to pay the referee fees, unless 
I first obtain a written waiver pursuant to 18 U.S.C.  208(b)(l), or 
qualify for a regulatory exemption, pursuant to 18 U.S.C.  208(b)(2).
    My spouse is the sole proprietor of her museum education related 
projects and education material development consulting firm. She has 
not formed a legal entity for this purpose. I will not participate 
personally and substantially in any particular matter involving 
specific parties in which I know a client of my spouse is a party or 
represents a party, unless I am first authorized to participate, 
pursuant to 5 C.F.R.  2635.502(d).
    If I have a managed account or otherwise use the services of an 
investment professional during my appointment, I will ensure that the 
account manager or investment professional obtains my prior approval on 
a case-by-case basis for the purchase of any assets other than cash, 
cash equivalents, investment funds that qualify for the exemption at 5 
C.F.R.  2640.201(a), obligations of the United States, or municipal 
bonds.
    I understand that, pursuant to 25 U.S.C.  2704(b)(5)(B), if I am 
confirmed as Chairman of the National Indian Gaming Commission, I may 
not hold a financial interest in, or management responsibility for, any 
gaming activity. I also understand that, pursuant to 25 U.S.C.  
2704(b)(5)(C), I may not hold a financial interest in, or have 
management responsibility for, any management contract approved 
pursuant to 25 U.S.C.  2711.
    I understand that as an appointee I will be required to sign the 
Ethics Pledge (Exec. Order No. 13770) and that I will be bound by the 
requirements and restrictions therein in addition to the commitments I 
have made in this ethics agreement.
    I will meet in person with you during the first week of my service 
in the position of Chairman, National Indian Gaming Commission in order 
to complete the initial ethics briefing required under 5 C.F.R.  
2638.305. Within 90 days of my confirmation, I will document my 
compliance with this ethics agreement by notifying you in writing when 
I have completed the steps described in this ethics agreement.
    I have been advised that this ethics agreement will be posted 
publicly, consistent with 5 U.S.C.  552, on the website of the U.S. 
Office of Government Ethics with ethics agreements of other 
Presidential nominees who file public financial disclosure reports.
        Sincerely,
                                 Edward Sequoyah Simermeyer
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

G. FINANCIAL DATA
    Information not released to the public.

    The Chairman. Thank you.
    We will begin with five-minute rounds of questioning. In 
your response to the Committee, you mentioned that gaming 
modernization is a challenge the Commission is facing. The 
gaming industry is always finding innovative ways to expand the 
market.
    First, as chairman, how would you ensure that the 
Commission is on top of this fast-changing world in gaming? You 
mentioned in your testimony the importance of being 
transparent. How do you make sure that you are transparent and 
accountable? How do you stay up with the changes and then make 
sure you are transparent and accountable in the decisions you 
make regarding it?
    Mr. Simermeyer. Thank you, Chairman Hoeven. Thank you for 
the chance to meet earlier to talk a bit about my background 
and my interest in the position.
    As you noted, the tribal gaming industry is a fast moving, 
evolving industry. It is important in the NIGC's role as 
regulators that we stay abreast of those changes. One of the 
opportunities we have to build on existing efforts that the 
Commission has taken on is to look at staffing, look at 
promoting best practices that exist in the industry and in the 
regulatory community, and helping to maintain partnerships 
across the regulatory community.
    You also mentioned the importance of looking at how to 
bring transparency and accountability. I noted in my written 
testimony that one of the opportunities for emphasis is looking 
at administrative accountability and transparency as it relates 
to that, and opportunities that exist, and that the Commission 
has already invested in that can be continue to be built on are 
opportunities for public facing bodies to help in our 
deliberation process, working with tribes through consultation 
in that process, making that a more robust opportunity. And 
looking at opportunities to deliberate on our decision-making 
both before the decision-making and then after decision-making 
is made available, too.
    The Chairman. Earlier this year, the Supreme Court struck 
down the Professional and Amateur Sports Protection Act. That 
is the Act that bans States from regulating and taxing sports 
betting. What is your vision on Indian tribes engaging in 
sports betting?
    Mr. Simermeyer. The Indian Gaming Regulatory Act did not 
prohibit sports betting in Indian Country. It did not limit it 
in any way. So Indian Country has been engaging in sports 
betting since before the Supreme Court's decision. Since after 
that time, more tribes are looking at the opportunity to look 
at sports betting.
    While the NIGC does not have a role in tribal policymakers' 
deliberations about that, if it is the best choice for their 
community, or whether or not it is permissible under their 
existing arrangements with the State governments as a Class III 
form of gaming.
    The National Indian Gaming Commission does play a role in 
issuing management contracts, if tribes choose to pursue 
partners, or in modifying ordinances that might exist if that 
is where the tribe wants to go. If confirmed, I think it would 
be important for the Commission to make sure that we are timely 
and responsive and not be a barrier, if that is the direction 
that tribes want to move.
    The Chairman. If confirmed, what are your top three 
priorities?
    Mr. Simermeyer. If confirmed, early on it would be 
important to, I think, address any matters that require the 
chairman's decision. As you know, as enacted, the Indian Gaming 
Regulatory Act provides certain authorities that can only be 
exercised by a chair. It would be important, if confirmed, to 
make sure there are no backlogs or pending matters that need to 
be addressed. That would be one important priority early on.
    It would also be important early on to work with the 
National Indian Gaming Commission staff. We have a number of 
great frontline folks in the field. It is important that we are 
walking in lockstep in terms of our interpretations and support 
and making sure of a uniform approach to our organization.
    It would also be very important to reach out to tribes 
early on to look at the possibilities for any measures that can 
be taken to help improve administrative accountability. As I 
mentioned in my testimony, it is an opportunity that I think 
exists and can be built on, the existing efforts we are doing. 
But it would require consultation and coordination with tribes 
to get the best input to avoid any unintended consequences.
    The Chairman. Thank you.
    Vice Chairman Udall.
    Senator Udall. [Presiding] Thank you, Chairman Hoeven.
    Mr. Simermeyer, as you know, IGRA is a statute designed to 
strike a delicate balance between tribal sovereignty, State 
interest in gaming and the Federal Government's role in Indian 
Affairs.
    The Tenth Circuit struck a blow to this balance when the 
court invalidated Interior Secretarial Procedures. Previously, 
if a State determined that it did not want to negotiate a 
tribal-State compact and decided to shield itself from a 
lawsuit through its sovereign immunity, tribes couldn't rely on 
Interior to issue procedures enabling Class III gaming to 
proceed. Mr. Simermeyer, do you agree with the Tenth Circuit's 
decision in Pojoaque?
    Mr. Simermeyer. Thank you, Vice Chairman Udall, for the 
question. I think it is an opportunity to talk a little bit 
more about background and your interests and my interests.
    The role of the National Indian Gaming Commission, as 
enacted, IGRA sets forth the opportunity for procedures. I 
believe it has been a successful tool as tribes have used it in 
the past.
    The role om the formation of Secretarial Procedures and 
approval of those is not a role that the National Indian Gaming 
Commission plays. We are involved as the Federal regulatory 
body that focuses on ensuring that tribal assets are protected.
    If in that process of developing Secretarial Procedures, as 
it moves in that process, there is a role for the National 
Indian Gaming Commission to play in enforcing Secretarial 
Procedures, that is a role that I think, if confirmed, I would 
do what I could to help promote that to make sure that where 
there is a partner, and if that is the decision that is made, 
that we go forward as a partner in that.
    Senator Udall. You did not specifically say whether you 
agree or not with the Tenth Circuit's decision in Pojoaque. Do 
you have a yes or no on that? Do you agree with that decision?
    Mr. Simermeyer. Vice Chairman, with regard to the 
Secretarial Procedures component of it, the role of the 
National Indian Gaming Commission isn't to develop formation of 
Secretarial Procedures. As enacted, IGRA requires the 
Commission to play a role in the enforcement of the framework 
of the Indian Gaming Regulatory Act as set forward, in commonly 
existing litigation matters. But in circumstances where there 
is an enforcement matter, I recognize and appreciate there are 
difficult decisions the Indian Gaming Regulatory Act would 
require for the chairman to look at that.
    Senator Udall. So without Secretarial Procedures, if States 
decide to not negotiate and there are no Secretarial 
Procedures, then the tribes are stuck basically, since Interior 
can't issue Secretarial Procedures for tribes and States within 
the Tenth Circuit. The Circuits are split on this.
    My State of New Mexico is in the Tenth Circuit. What can 
Indian tribes do to ensure that Class III gaming operations are 
stood up or may continue? They may have ones that have entered 
into compacts, then the compacts lapse, and then there are 
negotiations between the State. But if the State stiff-arms 
them, what is the National Indian Gaming Commission going to do 
about that? What is your position on that?
    Mr. Simermeyer. Mr. Vice Chairman, I understand and 
appreciate the challenge that presents. As I mentioned in my 
opening statement, in the decision-making we do, I think it is 
important to honor and respect the role that tribes have in 
entering into intergovernmental relationships and negotiating 
those processes.
    In those particular instances, we are not involved in the 
formation of Secretarial Procedures and wouldn't want to 
interject or speculate on that. But in that capacity, we would 
have to help enforce Secretarial Procedures, if that is 
required, as they are formed, then that is a role that I think, 
if confirmed, I would support the NIGC using our resources to 
do.
    Senator Udall. Senator Tester?

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Ranking Member, Udall.
    I thank you for being here today and thank you for your 
willingness to be considered for this job as Commissioner of 
the National Indian Gaming Commission.
    You have been in this position for three months, correct, 
in the acting position?
    Mr. Simermeyer. No, sir. There is presently not a chair of 
the National Indian Gaming Commission.
    Senator Tester. What is your current position?
    Mr. Simermeyer. I am serving as an Associate Commissioner 
on the three-member Commission. My appointment began in 
November 2015.
    Senator Tester. You were Director of the Office of Self-
Regulation, correct?
    Mr. Simermeyer. Correct. The Office of Self-Regulation, the 
chairman designates the Director for the Office of Self-
Regulation within the agency.
    Senator Tester. The chairman of NIGC does?
    Mr. Simermeyer. The chairman of the National Indian Gaming 
Commission.
    Senator Tester. Okay.
    Mr. Simermeyer. The purpose and role of that director is 
when a tribe petitions for a certificate of self-regulation, 
the director convenes staff from the various divisions to work 
on that decision.
    Senator Tester. The Chairman or you talked about the number 
of gaming operations that are out there in Indian Country. It 
is pretty significant. Can you tell me how many are self-
regulated?
    Mr. Simermeyer. Self-regulated, there are six tribes that 
are currently self-regulated.
    Senator Tester. Six tribes?
    Mr. Simermeyer. Six tribes, yes. Self-regulation is a 
provision that was enacted, as IGRA was enacted, self-
regulation was an early provision. It really represents one of 
the strong principles of self-determination in the legislation.
    Senator Tester. That is cool. Does anybody have any 
oversight over the self-regulated tribes?
    Mr. Simermeyer. Yes.
    Senator Tester. Self-regulated aside, how often do you guys 
visit facilities?
    Mr. Simermeyer. As members of the Commission?
    Senator Tester. As a commission. I assume it is your job to 
regulate them, right, or do you depend upon the States to do 
that?
    Mr. Simermeyer. No, sir. The primary regulators of tribal 
gaming are the tribal regulatory bodies on the ground.
    Senator Tester. Which work through you?
    Mr. Simermeyer. No. The tribal regulators on the groundwork 
through the tribal governments themselves. As enacted, the 
National Indian Gaming Act recognizes the tribes' capacity to 
do that.
    Senator Tester. I am not trying to pin you down. I am 
trying to flesh this out for my own goodwill. The tribal 
regulators on the ground do the regulation. What do you do?
    Mr. Simermeyer. The National Indian Gaming Commission's 
role as an agency helps to ensure sound regulation.
    Senator Tester. Do you give workshops to those Native 
regulators, the tribal regulators? How do you ensure that?
    Mr. Simermeyer. We ensure it by working with tribal 
regulatory bodies. As enacted, IGRA directs us to participate 
in training and technical assistance, and we work closely with 
them. We also, a commission, we also have the authority to hear 
on appeals of the full commission, on matters of enforcement.
    Senator Tester. I live pretty close to Rocky Boy Indian 
Reservation. You may or may not be familiar with it. It is a 
way away from your neck of the woods. I assume they have their 
own tribal regulators.
    Mr. Simermeyer. I can't comment on the specifics of that, 
of the tribe, right now, Senator.
    Senator Tester. Okay. How many people work in your shop?
    Mr. Simermeyer. There is 115 staff at the National Indian 
Gaming Commission currently, 131 when fully staffed.
    Senator Tester. How are you funded?
    Mr. Simermeyer. We are funded by fees that are collected. 
As enacted, IGRA set up a system for fee collection. Fees from 
tribes are what fund our operation.
    Senator Tester. You are self-funded. I assume it is a 
percentage of the net or a percentage of the gross for each 
operation. How does it work?
    Mr. Simermeyer. Yes, net gaming revenue. In general, tribes 
that are below a certain annual revenue do not pay fees.
    Senator Tester. Can you tell me what that benchmark is for 
below?
    Mr. Simermeyer. I believe it is $1.5 million.
    Senator Tester. Below $1.5 million of gross revenue?
    Mr. Simermeyer. Yes.
    Senator Tester. If they are below that, they don't have to 
pay any fees?
    Mr. Simermeyer. I believe so.
    Senator Tester. That is good. Thank you. You seem to know 
your job or your potential job. I want to thank you for your 
interest and look forward to working with you as we move 
forward.
    Thank you.
    Mr. Simermeyer. Thank you, Senator.
    Senator Udall. Senator Barrasso.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Senator Udall.
    Mr. Simermeyer, congratulations again on your nomination. 
We had a chance to visit earlier today.
    For folks that don't know, when I served as chairman of the 
Committee, you were working for the Department of the Interior. 
For a little over a year, you were detailed to my staff here on 
the Committee.
    I really appreciated the good work and the thoughtful 
approach that you brought to the many issues affecting Indian 
Country. I am so pleased to see you here today as we review the 
nomination. I look forward to hearing more of the successes of 
the Commission under your leadership.
    One of the things we talked about this morning, and perhaps 
I could ask you to elaborate a little bit for the other members 
of the Committee and for the people in attendance, what we just 
talked about, there are always changes in technology, emerging 
threats to the industry, specifically with security. Could you 
expound a little bit on some of the things we discussed this 
morning as you look to the future with technology and security 
threats, especially in this internet age and all of the things 
that are happening?
    Mr. Simermeyer. Thank you, Senator Barrasso, for the 
question. Thank you for taking time to meet with me and for the 
opportunity I had to work with the staff. I appreciate that.
    Technology has been in recent years at the National Indian 
Gaming Commission an important priority and area emphasis that, 
if confirmed, I would want to continue to build on that. As 
noted in my testimony, preparedness is an area where we can 
work with tribes to identify best practices and to identify 
opportunities we have to ensure that tribal assets are 
protected.
    The number and diversity of operations in Indian Country is 
great. The important role that the National Indian Gaming 
Commission can play is to identify those opportunities to work 
with tribes, to assess risks, and to see what is appropriate 
for them.
    As enacted, under IGRA's requirement for us to provide 
training, one of the opportunities that we have is to provide 
IT vulnerability assessments to the tribes. That has been one 
of the success stories over the recent years of the Compliance 
and Technology Division within the agency.
    Senator Barrasso. That is one of the things we talked about 
in terms of the IT vulnerability. People may think, well, I may 
not be able to go to Las Vegas and try some attack, some level 
of perceived vulnerability, and you shared with me that there 
were cases where people have tried that and have actually 
gotten caught with Indian gaming as well.
    So it sounds like you are right on task for vulnerability. 
I don't know if you want to share any of the examples. Maybe 
you can't do that. But it was very interesting to know that 
with the new technology, with cell phone technology, people are 
always trying to find ways to manipulate the system.
    Mr. Simermeyer. Yes. The opportunity exists for the 
National Indian Gaming Commission to continue the role in 
outreach that we do, to help educate the public about the sound 
regulatory oversight that takes place in Indian Country gaming.
    It is a real success story. Tribes, as the frontline 
regulators, are extremely invested in how they approach and 
secure their assets. We have a role to support there as well.
    Senator Barrasso. Thank you.
    Thank you, Senator Udall.
    Senator Udall. Thank you, Senator Barrasso.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you, I appreciate that, Ranking 
Member Udall.
    Mr. Simermeyer, it is good to see you again. Thank you for 
visiting with me earlier. I so appreciate that.
    Mr. Simermeyer. Thank you.
    Senator Cortez Masto. Let me jump back to, just so I have a 
better understanding of sports betting, what I understood you 
to say is that Murphy v. NCAA didn't really have an impact as 
it pertains to sports betting for Indian gaming. Is that 
correct?
    Mr. Simermeyer. No, I intended to say, and thank you, 
Senator, for taking the time to meet with me as well. I 
appreciate that.
    No, the point I was trying to make, and thanks for the 
opportunity to clarify it, is that the Indian Gaming Regulatory 
Act does not prohibit types of gaming. The National Indian 
Gaming Commission has worked with tribes. One tribe in southern 
Nevada has had successful sports betting since before that 
decision.
    Since that decision, other tribes now, in other parts of 
the Country, that were impacted differently by the law, are 
considering sports betting. The role of the National Indian 
Gaming Commission, I believe, should be that if tribes are 
working at pursuing that opportunity within the bounds of IGRA 
as a Class III form of gaming, and it is permissible under 
their compact arrangement, that we as the National Gaming 
Commission does not stand in the way of decisions we may have 
to make with regard to management contract partnerships or with 
ordinance modifications. That is the work we have been doing to 
keep up to speed as more jurisdictions look at this issue.
    Senator Cortez Masto. Thank you. I appreciate that.
    To what extent would you, as the commission, regulate 
sports gaming on tribal land?
    Mr. Simermeyer. Sports betting on tribal land would 
generally be a Class III operation. So it would be regulated in 
that way under IGRA. There are internal controls we have as 
guidance. We wouldn't enforce those.
    Senator Cortez Masto. You wouldn't enforce?
    Mr. Simermeyer. We would not enforce the Class III. Our 
enforcement authority extends to violations of tribal 
ordinances, violations of our regulations, and violations of 
the Indian Gaming Regulatory Act. But the tribes and States 
would negotiate the compact relationship. That would, through a 
tribal ordinance, govern what oversight there would be.
    Senator Cortez Masto. For the sports betting?
    Mr. Simermeyer. For the sports betting, and if we have 
enforcement authority through violations of any of those, that 
is the role we would play.
    Senator Cortez Masto. Correct me if I am wrong. You have no 
criminal law enforcement authority, correct? You have just 
civil enforcement authority?
    Mr. Simermeyer. Civil enforcement authority, yes.
    Senator Cortez Masto. To what extent, then, does the 
Commission then monitor the management contracts or 
partnerships with companies that may be in violation of State 
or Federal law as it pertains to tribal gaming? What is your 
interpretation of the authority and role in enforcing the 
integrity in combating the bad actors? What role do you play?
    Mr. Simermeyer. Thank you, Senator, for that question.
    As enacted, the Indian Gaming Regulatory Act requires the 
National Indian Gaming Commission to refer any actionable 
information on criminal matters to law enforcement agencies. 
That is a that role we take seriously. If confirmed, I would do 
my part to continue that role and the requirements in that 
regard.
    If a tribe enters into a management contract agreement with 
a partner, the chairman takes on the responsibility of 
reviewing the suitability of the partner as well as a financial 
background review, ensuring that tribes remain the primary 
beneficiaries of the gaming revenues, and making sure that the 
management contract meets the fiduciary duty to ensure the 
tribe's best interests are kept in mind as laid out in the 
Indian Gaming Regulatory Act.
    Senator Cortez Masto. To your knowledge, has there ever 
been a temporary closure of a gaming facility on Indian land 
for substantial violations of IGRA?
    Mr. Simermeyer. Yes.
    Senator Cortez Masto. Has it occurred while you have been 
there?
    Mr. Simermeyer. Temporary closure orders are raised by the 
chairman. I believe there has been a recent one last year by 
the chairman as part of a settlement agreement. But the full 
Commission reviews closure orders. Only the full Commission, on 
appeal of a temporary closure order, can make the closure order 
permanent.
    Senator Cortez Masto. Thank you. I notice my time is up. 
Thank you very much. Congratulations on your nomination.
    Mr. Simermeyer. Thank you, Senator.
    Senator Udall. Thank you, Senator.
    I would like to get a little more specific. You talked 
about modernization a little bit with the Chairman. What you 
mentioned under modernization is staffing, better practices and 
partnerships with the industry. What are you talking about 
specifically with regard to modernization for staffing?
    Mr. Simermeyer. Thanks, Senator Udall. Specifically, one of 
the initiatives the National Indian Gaming Commission has been 
operating under for the past few years is our commitment to 
stay ahead of the technology curve. I think that has been a 
real success story in making sure that we have the right staff 
and that staff is properly trained in matters related to that 
topic of technology.
    There is the opportunity as well to look at working with 
tribes to make sure we are providing the kinds of resources 
through our training and technical assistance and where we need 
to add additional resources, to be sure we can do that as a 
commission and identify those opportunities.
    Senator Udall. How about with best practices in industry? 
What are you going to modernize there?
    Mr. Simermeyer. As mentioned before, the industry is always 
evolving and changing. That is what IGRA contemplated. In any 
role where we may play in a decision, it is important that we 
are kept abreast of what the industry trends are going towards, 
so that whether it is issuing an advisory opinion on a game or 
whether it is looking at the comprehensiveness of our 
management controls, it is important for us to remain abreast 
of how the industry might be changing.
    Senator Udall. I would like your assurances that your view 
of modernization does not include staff reductions, movement of 
personnel within NIGC or otherwise embarking on a substantial 
reorganization without consulting with Congress or tribes 
first.
    Mr. Simermeyer. Absolutely, Senator. That wasn't intended 
by that. Absolutely not. Consultation would be a very important 
part early on if there are any administrative measures we take 
to engage with tribes to make sure this is not going to have 
unintended consequences and it is not going to cause 
complications for the industry that tribes regulate.
    Senator Udall. NIGC plays an important role in determining 
whether proposed gaming is categorized as Class II or Class 
III. NIGC is frequently called upon to make this determination 
since Class II gaming can be conducted without a tribal-State 
compact.
    Mr. Simermeyer, do you have experience in making this 
determination as an Associate Commissioner? If so, please 
provide an example.
    Mr. Simermeyer. Thank you, Vice Chairman. The gaming 
classification opinions are typically provided by the Office of 
General Counsel. It is a valuable tool that helps the industry 
and helps tribal regulators, helps tribes to be able to move 
forward with their own plans for their operations. As the 
Associate Commissioner, it has not been my role to issue an 
opinion, a game classification opinion. Generally, though, as 
enacted, in IGRA and through our regulations, the game 
classification standards were laid out and even modified by 
case law.
    Senator Udall. So I would expect as chairman then, you 
would work carefully with the counsel in trying to understand 
previous opinions and what their position has been and then 
work to make sure that in the future, you properly supervise 
them.
    Mr. Simermeyer. Absolutely. The Office of General Counsel's 
advisory opinions have provided a really comprehensive body of 
guidance that the industry and tribes have relied upon. Any 
decision-making process, first and foremost, must be legally 
sufficient. That guidance comes from our Office of General 
Counsel.
    Senator Udall. Following up, because you haven't had 
experience doing that, if confirmed as chair, how would you go 
about making this determination, what interests would you 
weigh, and what would your decision-making process look like?
    Mr. Simermeyer. Thank you, Senator. If confirmed, it would 
be important that the action would be, first and foremost as I 
mentioned, legally defensible and in line with our regulations 
and the law. With regard to the enforcement actions in general, 
it is important that we act fairly, and that an enforcement 
action, if it is brought, that it represents a clear 
articulation of the policy and the law and does not have any 
unintended consequences beyond that.
    Senator Udall. We are in the middle of a vote. I believe 
the chairman is on the way back. Senator Cortez Masto, if you 
wanted to continue questioning, I am going to go vote and then 
come back after that and ask additional questions.
    Senator Cortez Masto. I do have a couple questions.
    I think when we met you were familiar with the work Senator 
Murkowski and I have done both on trafficking and the crisis of 
missing and murdered Native American and indigenous women.
    Let me ask you this. One of NIGC's goals or a mission for 
the NIGC under the Indian Gaming Regulatory Act is to ensure 
public safety. How will the Commission assist tribal facilities 
and tribes in taking proactive steps to combat and address 
human trafficking within the facilities?
    Mr. Simermeyer. Thank you, Senator. That was an excellent 
discussion. I appreciated talking about it and having the 
chance to tell the story of the role we can play.
    As we talked about before, the Commission doesn't have 
criminal law enforcement authority. However, we do have, as 
IGRA was enacted, the ability and responsibility to use 
training to carry out the regulatory system that IGRA has in 
place, including protection of the health and public safety of 
the operations. To that end, I think there is a good story to 
tell about the work the Commission has been doing over the last 
few years. If confirmed, I would support and want to continue 
doing that as well.
    Particularly under the leadership of the current vice 
chair, there has been an effort to look at opportunities to 
train to bring about some of the excellent corporate 
responsibility measures and best practices that exist in the 
industry, and to partner that with the regulatory framework 
that exists between tribes and other jurisdictions in the 
gaming operations.
    I think that is an opportunity to bring together, whether 
it is the tribal regulatory community and the criminal law 
enforcement community, to look at targeted issues like human 
trafficking, where we can, promote those best practices and we 
can be available to help tribes and tribal policymakers as they 
look at how they can address that issue at the local level in 
their community.
    Senator Cortez Masto. Thank you. I would invite you and 
your commission, to the extent you can, to participate. Not 
only do we have Savanna's Act but also the Not Invisible Act. 
The goal is to try to bring some of the Federal agencies 
together to really focus on this particular issue.
    I think it would be helpful if you are so willing or the 
Commission is willing to participate in how we address this 
issue on tribal land and working with our law enforcement, 
working with folks to really bring attention to this, identify 
it and then figure out how we provide the necessary support, 
and then in conjunction working with the training for tribal 
law enforcement and Federal law enforcement as well. I think 
there is definitely a role that the Commission can help us with 
some of the operators on tribal land.
    Mr. Simermeyer. Thank you, Senator.
    Senator Cortez Masto. Thank you. I have to go vote, so I 
think we are going to do a brief recess. I understand the 
chairman is on his way back. We will have a brief recess right 
now.
    Thank you.
    [Recess.]
    The Chairman. [Presiding.] We will reconvene our hearing.
    We apologize. We are having votes so we have to work around 
that. Thanks for your patience. I have a couple more questions 
and I think the vice chairman also has a few more questions for 
you before we wrap up.
    Does NIGC have the capacity to ensure the integrity of 
Indian gaming?
    Mr. Simermeyer. Thank you, Mr. Chairman.
    With regard to our capacity, as enacted, and regarding our 
capacity in terms of resources, as enacted it provides the 
necessary tools to set a fee rate that is used to fund NIGC 
operations. We work as a commission to make sure that process 
assesses the need that exists and to work to try to make sure 
we have sufficient resources available within the commission to 
do its oversight responsibility.
    An important part of that and an important investment in 
that is both in the technology resources we have and also in 
the staffing and expertise resources. If confirmed, and if 
necessary to assess that, that would be a responsibility I 
would continue to take seriously.
    The Chairman. As Director of the Office of Self Governance, 
can you speak about some of the successes tribes have had in 
self-regulating Class II gaming?
    Mr. Simermeyer. Self-regulation is a great success story, I 
think, within the Indian Gaming Regulatory Act's formation. As 
enacted, it provides tribes with the opportunity to petition 
the Commission, it empowers the Commission to present 
certificates of self-regulation to tribes, and reduces what 
would otherwise the tribe, by issuing a certificate, deems as 
redundant regulatory oversight of the Class II operation the 
tribe performs.
    There have been a small number of tribes over the years 
that have pursued this. It is a decision for each tribe if it 
is appropriate for them but I think in the past two years, one 
of the successes we have had is we have been able to bring it 
to different parts of Indian Country as they consider if it is 
an appropriate decision for them. Most recently in southern 
California and the Midwest, two tribes successfully petitioned 
for certificates of self-regulation.
    The Chairman. In the past, NIGC has had a significantly 
high carryover in the budget. How do you plan to spend those 
funds or are you looking at a refund to tribes that pay into 
the NIGC?
    Mr. Simermeyer. Past commissions, I think, have looked at 
the issue of whether or not carryover funds can be returned to 
tribes. I think there is legal guidance that doesn't make that 
possible, I believe.
    One of the ways the current commission has looked at 
addressing that issue is to strive to make reductions in the 
fee rate or keeping the fee rate at a level that allows the 
surplus to be spent down. If confirmed, I think there is an 
opportunity I mentioned in the outreach and accountability 
emphasis areas where we could look at ways to engage on that 
budget consideration process.
    The Chairman. At this point, I am going to have to go vote 
but I will turn the meeting over to the Vice Chairman for his 
questions. Then I think you can adjourn at that point. Thanks 
for being here today.
    Mr. Simermeyer. Thanks, Mr. Chairman.
    Senator Udall. [Presiding.] Thank you.
    Mr. Simermeyer, thank you for your patience with all the 
voting and running around and everything.
    In 2017, gross gaming revenue was up 4 percent at $32.4 
billion, yet the current fees paid by tribal gaming operations 
are the lowest adopted amount since 2010. Mr. Simermeyer, with 
the growth of sports betting, increased risk from cyber 
security threats, and the growing need for enforcement funding, 
does NIGC have sufficient resources to keep up with these 
growing demands?
    Mr. Simermeyer. Thank you, Vice Chair. As enacted, the IGRA 
provides the proper tools for the Commission to be able to 
adjust fee rates as necessary. If confirmed, I would work with 
other members of the Commission and identify ways that we can 
be thoughtful about making sure that we are preserving the 
resources we have, maintaining adequate and appropriate 
carryover for each year, so that we can fund operations in the 
quarterly system that we receive funds, and also to make sure, 
first and foremost, that we are providing the resources and 
oversight to make sure that, as the Federal regulators of 
tribal gaming, we are doing our job.
    Senator Udall. So if you saw an increased risk from cyber 
security threats, for example, would you be willing to increase 
the fee to get the resources needed to tackle those threats?
    Mr. Simermeyer. I can't speculate on what the future budget 
processes might look like. But if confirmed, I will definitely 
work with all the members of the Commission to gather as much 
information as possible from as many resources as we can to 
make sure we are making thoughtful investments.
    In my testimony, I mentioned the importance of outreach and 
the importance of administrative accountability. I think there 
are opportunities to emphasize that in how we think about our 
fee rate, in how we develop our budget process, and how we work 
with tribes and support consultation.
    Senator Udall. Mr. Simermeyer, during your time as 
Associate Commissioner, the Commission considered a case 
involving whether certain lands were eligible for gaming as 
restored lands by the Ponca Tribe. The Commission issued two 
final decisions and orders on the subject, one in 2017 and 
another in 2019, siding with the tribe. The neighboring States 
opposed the Commission's decisions.
    You did not sign onto to either of the Commission's 
decisions. It leaves me wondering, did you oppose the decision, 
and if you did, why did not you file a dissent?
    Mr. Simermeyer. Thank you, Vice Chairman, for the chance to 
talk generally about the decision-making process for the 
Commission. I can't speak to specifics about a matter that 
might be in litigation, but if it is helpful, I will try to 
talk about the process.
    As a matter of course, how the Commission has historically 
recorded its decisions, they are in the form of a notation 
document. That is the decision of record. That is the final 
agency action for the Commission. Any letters or outreach 
subsequent to that, those are explanations of the decision.
    I outlined early on the importance I believed in any 
decision-making process that the Commission takes on to follow 
the intent as IGRA was enacted, to look to expertise, to our 
staff particularly and the regulatory community, and to be 
diplomatic in our decision-making, recognizing tribes' inherent 
authority to enter into inter-governmental relationships.
    In instances where I have not voted, I have always 
documented my rationale for that in the notation document that 
goes with it. I think that is an important responsibility for 
any commissioner. The group dynamic within any commission, I 
think it is important, too, that once there is final agency 
action, that is the action of the commission. The final agency 
action is only one decision. It is an important group dynamic 
with the many decisions that we make to walk in one step and 
not try to undermine implementation of the decision.
    Senator Udall. The notation document, is it public?
    Mr. Simermeyer. It is part of the administrative record in 
the litigation. I think it is available to the public. I talked 
in my opening testimony about the opportunity that I believe 
exists to improve transparency through administrative 
accountability. I think that in working with other 
commissioners, if confirmed, that would be a great opportunity 
to look at both the deliberation processes before decisions are 
made and making decisions accessible to the public.
    But with regard to when a decision is made with a specific 
impact on a tribe, we have always made it a point to outreach 
and make sure that we communicate and roll out a decision with 
those that are impacted by it. That was done in that case as 
well. I appreciated the opportunity to share that with the 
tribe, my position on that.
    Senator Udall. Can you share this notation document with 
us, since it is public?
    Mr. Simermeyer. I believe I can. I would like to try to 
confer with the general counsel's office, because the matter is 
related to litigation. But I can commit, that if confirmed, to 
work with the other commissioners to try to make sure that 
accessibility is an important part of how we move forward. But 
I will have to qualify that, like I said, I would like to try 
to confer to make sure that is possible because it is related 
to ongoing litigation right now.
    Senator Udall. The questions I asked though had more to do 
with what happened in the past rather than ongoing or future 
litigation on this issue, which was, so you did file a dissent 
in this notation and it is out there in public?
    Mr. Simermeyer. Well, I voted against the decision to issue 
the opinion. So that is the decision that is final for the 
agency action as I understand it in terms of what has been the 
common practice. So I am trying to follow the common practice. 
I documented my thoughts on it, but there is only one final 
agency action. That action is in litigation right now. So I 
would like to confer about that, to have the opportunity to 
kind of explain it, I think can be helpful, but with regard to 
that specific matter.
    Senator Udall. I think I talked with you about this 
yesterday. My concern is when you have a regulator and you make 
a ruling, you are impacting all your stakeholders out there, 
very important to tell them why you acted the way you did. I 
understand there is a different role as Associate Commissioner 
but when you are the chairman, I would hope you would take a 
broader view of transparency.
    If Associate Commissioners decide to go in another 
direction, have them state the reasons, so that the public 
understands the three members, why they came down the way they 
did and what their reasoning, was so they can anticipate in the 
future so that tribes and others can anticipate where the 
commission is headed. That is a key part.
    The transparency is important but also the certainty in 
terms of the tribal interest, knowing where we are going to 
come down. So I hope you will be out front on that. As 
chairman, this is a new role requiring you to go on the record 
and state specifically your position in some of these tough 
decisions.
    What role do the States play in the regulation of Class II 
Indian gaming?
    Mr. Simermeyer. What role do they play?
    Senator Udall. Yes.
    Mr. Simermeyer. Thank you. And I might say briefly, I 
appreciate your comment, appreciate the conversation about that 
and understand your concern about that, and agree, as I have 
mentioned about the importance of that, sound decision-making, 
making it legally defensible and define scope, that is helpful.
    With regard to States' role in Class II gaming oversight, 
as it is enacted, IGRA gives States no regulatory authority 
over tribal gaming. The only way that a State can really apply 
its general civil law under the Indian Gaming Regulatory Act is 
through a compact. Although IGRA gave States the right to 
negotiate tribal-State compacts, it did not give States any 
more authority without tribes' consent in that negotiation 
process. I think that is how IGRA is enacted.
    If confirmed, I think that, again, the integrity of the 
industry depends on the framework of IGRA being upheld.
    Senator Udall. Going back to the Pojoaque decision out of 
the Tenth Circuit, and there are split decisions, when you 
become chairman, I think it is important that you weigh in on 
where these two circuits have come down. You are the one in the 
center of what is happening.
    It just seems to me, from my experience over the years I 
was a State attorney general, I worked for eight years with 
IGRA and the enforcement of IGRA and the compacting process and 
everything, here we have a Tenth Circuit decision for a number 
of States in the Tenth Circuit where, if States become very 
resistant, there is no avenue for the tribe. I think it is 
important for the Commission to take some kind of position on 
that and enunciate what you think ought to be happening here, 
because we are going to have different interpretations from 
different circuits.
    We all hope that the Supreme Court would take this up and 
resolve it. I would hope they would resolve it on the side of 
allowing Secretarial Procedures to go forward, because I think 
that is a good safety valve from everything. If they can't 
agree, and there isn't good faith, then there is a safety valve 
there for tribes to be able to get their compacts approved.
    With that, let me thank you again. Thank you to your family 
for being so patient.
    I am just going to close out here, no more questions for 
you. Thank you to the nominee who has provided his time and 
testimony. I would ask members if they have any questions for 
the record for Mr. Simermeyer to please submit them by the end 
of this week so the nominee can respond in due order. I will 
then work with my colleagues on the Committee to schedule a 
vote.
    I am going to work with the Chairman to schedule a vote and 
perhaps move you to the Senate Floor as quickly as possible.
    If there is no other business before the Committee, this 
hearing is adjourned.
    [Whereupon, at 4:02 p.m., the Committee was adjourned.]

                            A P P E N D I X

                                     Wilton Rancheria Tribe
                                                      July 23, 2019
Hon. John Hoeven,
Chairman;
Hon. Tom Udall,
Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.

Dear Senator Hoeven and Senator Udall:

    On behalf of the Wilton Rancheria Tribe in California, I am 
reaching out to you today in support of Sequoyah Simermeyer's 
nomination as Chair for the National Indian Gaming Commission (NIGC). 
Mr. Simermeyer's extensive work with the Senate Committee on Indian 
Affairs (SCIA), Department of Interior, and his leadership experience 
as an NIGC Associate Commissioner makes him well suited to be NIGC 
Chair.
    Through his many years of experience working on priority issues 
facing Indian country, Mr. Simermeyer brings an in-depth understanding 
and practical knowledge of Indian gaming regulation issues. 
Furthermore, his support of tribal self-determination and his 
understanding of the importance of tribal economic development is very 
important to Wilton Rancheria. We look forward to working with Mr. 
Simermeyer in his role as NIGC Chair.
    Thank you for your time in this matter. Your service on SCIA is 
greatly appreciated.
        Sincerely,
                                      Raymond C. Hitchcock,
                                                   Tribal Chairman.
                                 ______
                                 
                                              Quapaw Nation
                                                      July 23, 2019
Hon. John Hoeven,
Chairman;
Hon. Tom Udall,
Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.

Dear Senator Hoeven and Senator Udall:

    On behalf of the Quapaw Nation (Nation), I am writing in support of 
E. Sequoyah Simermeyer to be Chairman of the National Indian Gaming 
Commission (NIGC). Indian gaming has blossomed in the last 20 years to 
include more than 500 licensed gaming establishments in 29 states. 
Gross revenues from these establishments have grown to more than $30 
billion and, as you know; many Indian tribes rely on these revenues to 
provide government services to their members.
    The Nation has developed and is now conducting successful gaming 
operations on its lands in far northeast Oklahoma, and we use our 
gaming revenues to provide health care, food and nutrition programs to 
the elderly and local communities, and other basic services that make 
our people healthy and safe.
    While most regulatory authority under the Indian Gaming Regulatory 
Act rests with tribes and in the case of class III gaming with tribes 
and states pursuant to gaming compacts, the NIGC nevertheless fulfils 
its valuable statutory role through seven regional offices and some 115 
full-time employees.
    Mr. Simermeyer has considerable experience working with tribal 
governments in his past role as counsel to the National Congress of 
American Indians, as well as counsel and deputy chief of staff to the 
Assistant Secretary--Indian Affairs, and counsel to the Senate 
Committee on Indian Affairs. His current role as Commissioner and 
Director of Self-Regulation for the NIGC puts him in good stead to 
assume the leadership of the commission.
    I know and have worked with Mr. Simermeyer and can recommend him to 
you without hesitation or qualification, and know that once confirmed 
will provide the leadership the NIGC must have.
        Sincerely,
                                            John L. Berrey,
                                                          Chairman.
                                 ______
                                 
                                 Choctaw Nation of Oklahoma
                                          Durant, OK, July 30, 2019
Hon. John Hoeven,
Chairman,
Senate Committee on Indian Affairs,
Washington, DC.
 Re: Letter of support for Sequoyah Simermeyer to serve as 
          Chairman of the National Indian Gaming Commission

Dear Mr. Chairman:

    On behalf of the Choctaw Nation of Oklahoma, I wholeheartedly offer 
this letter of support for the nomination of Sequoyah Simermeyer to be 
the next Chairman of the National Indian Gaming Commission. We have 
worked with Mr. Simermeyer over the years in his various 
responsibilities. Mr. Simermeyer has shown a personal commitment to 
Indian Country and to the interests of Native American tribes engaged 
in the conduct of governmental gaming; therefore, the Choctaw Nation 
urges the Committee to report favorably on his nomination and to work 
actively to secure his early confirmation by the full Senate.
        Sincerely,
                                                Gary Batton
                                                              Chief
                                 ______
                                 
                                  Mille Lacs Band of Ojibwe
                                                      July 30, 2019
Hon. John Hoeven,
Chairman;
Hon. Tom Udall,
Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.

Dear Mr. Chairman and Vice Chairman:

    I write to express the support of the Mille Lacs Band of Ojibwe for 
the nomination of Sequoyah Simermeyer to be the next Chairman of the 
National Indian Gaming Commission. We know Mr. Simermeyer and his able 
service in various capacities over the years. He has demonstrated a 
commitment to the interests of Indian tribes engaged in the conduct of 
governmental gaming. That is why we urge the Committee to report 
favorably on his nomination and to work actively to secure his early 
confirmation by the full Senate.
        Sincerely,
                                           Melanie Benjamin
                                                    Chief Executive
                                 ______
                                 
                       Shakopee Mdewakanton Sioux Community
                                      Prior Lake, MN, July 30, 2019
Hon. John Hoeven,
Chairman,
Senate Committee on Indian Affairs,
Washington, DC.
    I write to express the support of the Business Council of the 
Shakopee Mdewakanton Sioux Community for the nomination of Sequoyah 
Simermeyer to be the next Chairman of the National Indian Gaming 
Commission. Mr. Simermeyer has demonstrated a commitment to the 
interests of Indian tribes engaged in the conduct of governmental 
gaming. We urge the Committee to move quicldy to report favorably on 
his nomination, and work actively to secure his confirmation by the 
full Senate.
        Sincerely,
                                         Keith B. Anderson,
                                    Vice Chairman, Business Council
                                 ______
                                 
               The Chickasaw Nation, OFFICE OF THE GOVERNOR
                                             Ada, OK, July 25, 2019
Hon. John Hoeven,
Chairman;
Hon. Tom Udall,
Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.

Chairman Hoeven and Vice Chairman Udall:

    I am writing to express my support for Sequoyah Simermeyer, and to 
respectfully request that the Senate Committee on Indian Affairs 
approve his nomination to serve as Chairman of the National Indian 
Gaming Commission (NIGC).
    Mr. Simermeyer has broad experience in tribal issues, and he is 
well-qualified to serve as NIGC Chairman. He has ably served on the 
NIGC since 2015 as Associate Commissioner and Director of Self-
Regulation. In these roles he has worked with federal, state, and 
tribal bodies on national gaming regulatory policy and compliance, as 
well as self-regulation petitions. Prior to joining the commission, Mr. 
Simermeyer successfully undertook jobs in both the executive and 
legislative branches in positions of increasing substantive and 
managerial responsibility. These roles included service as Counselor 
and Deputy Chief of Staff to the Department of the Interior's Assistant 
Secretary for Indian Affairs and as Counsel on the Senate Committee on 
Indian Affairs.
    The NIGC plays an important and integral role in the long-term 
success of tribal self-governance and self-regulation of gaming under 
the Indian Gaming Regulatory Act. The commission has jurisdiction over 
512 licensed gaming establishments operated by 246 Indian tribes in 29 
states.
    According to the Department of the Interior, in fiscal year 2017, 
tribal gross gaming revenues were approximately $32.4 billion. The NIGC 
currently has roughly 114 full-time employees in seven regional offices 
with an annual budget of$25 million in fiscal year 2019. The NIGC 
budget is funded through fees paid by tribal gaming operations.
    Many of the powers of the commission spelled out under IGRA and 
subsequent regulations flow through the office of the Chairman. As 
such, a Senate-confirmed Chairman is essential to the ability of the 
NIGC to function effectively. The position has been vacant since May 
15th. The committee's expeditious approval of Mr. Simerrneyer's 
nomination would be helpful in ensuring prompt consideration by the 
full Senate.
    Your steadfast focus on the needs of Indian Country and continued 
willingness to advance legislation that benefits our communities is 
greatly appreciated. Thank you for your consideration.
        Sincerely,
                                            Bill Anoatubby,
                                         Governor, Chickasaw Nation
                                 ______
                                 
CachiJ Dehe Band of Winton Indians, Colusa Indian Community
                                                      July 19, 2019
Hon. John Hoeven,
Chairman;
Hon. Tom Udall,
Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.

Chairman Hoeven and Vice Chairman Udall:

    On behalf of the Cachil Dehe Band of Wintun Indians of the Colusa 
Indian Community, I write to express support for the confirmation of E. 
Sequoyah Simermeyer as the next Chair of the National Indian Gaming 
Commission (NIGC). Over years of public service, Mr. Simermeyer has 
demonstrated great integrity and bas been a champion for tribal 
sovereignty. Swift confirmation of Mr. Simermeyer will enable the NIGC 
to seamlessly continue its mission to support responsible tribal gaming 
operations.
    E. Sequoyah Simermeyer is a member of the state recognized Coharie 
Tribe in North Carolina, and has served on the NIGC as Associate 
Commissioner since 2015. Prior to joining the Commission, Mr. 
Simermeyer served both in the Senate Indian Affairs Committee, as well 
as in the Department of the Interior, giving him a comprehensive 
understanding of both the Legislative and Executive branches.
    Mr. Simermeyer has consistently demonstrated himself to be a 
thoughtful defender of tribal sovereignty and proponent of responsible 
tribal gaming. He has made himself available to tribal leaders upon 
request, and understands the unique relationship between tribal 
governments and the U.S. government. We believe that he will be an 
effective leader for the NIGC.
    We urge the Committee to work swiftly to confirm Mr. Simermeyer. 
Thank you for your consideration, and we look forward to continuing to 
work with you and the Committee on this and other important issues.
        Sincerely,
                                            Hazel Longmire,
                                                   Vice Chairwoman.
                                 ______
                                 
                                Gila River Indian Community
                                                      July 23, 2019
Hon. John Hoeven,
Chairman;
Hon. Tom Udall,
Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.
RE: Support for E. Sequoyah Simermeyer to Serve as Chair of 
                      the National Indian Gaming Commission

Chairman Hoeven and Vice Chairman Udall:

    I write on behalf of the Gila River Indian Community (Community) in 
support of the nomination of E. Sequoyah Simermeyer to serve as Chair 
of the National Indian Gaming Commission (NIGC). Mr. Simermeyer is 
highly qualified to serve as Chair and the Community believes his 
leadership will further the NIGC's goals in regulating and supporting 
tribal government gaming through a fair and balanced approach.
    Mr. Simermeyer is well respected and possesses significant 
credibility across Indian Country. This respect stems from the 
relationships he built and the work he conducted as both an Indian law 
and policy advocate and as a federal official. Since his appointment to 
the NIGC in2015, Mr. Simermeyer has leveraged both his experience 
working for the National Congress of American Indians, the largest 
tribal organization in the country and advising the Assistant Secretary 
for Indian Affairs in the U.S. Department of the Interior to uphold the 
Indian Gaming Regulatory Act (IGRA) in an equitable and careful manner.
    The Community supports Mr. Simermeyer because of his proven ability 
to respect the sovereignty of tribal governments while enforcing and 
upholding the intent of IGRA. He understands the regulatory and 
jurisdictional complexities of tribal government gaming. At the same 
time, he has served as a leader on important gaming issues by tackling 
head on difficult conversations with tribal and non-tribal officials 
and upholding the federal government's responsibility to meaningfully 
consult with tribal nations in order to fully promote tribal economic 
development, self-sufficiency, and strong tribal governments.
    For these reasons, the Community urges the Committee on Indian 
Affairs to support and the full Senate to confirm Mr. Simermeyer to 
serve as Chair of the NIGC as expeditiously as possible.
        Sincerely,
                                         Stephen Roe Lewis,
                                                          Governor.
                                 ______
                                 
                                   Yocha Dehe Wintun Nation
                                                      July 16, 2019
Hon. John Hoeven,
Chairman;
Hon. Tom Udall,
Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.
  RE: Nomination of E. Sequoyah Simermeyer for Chairman of 
                      the National Indian Gaming Commission

Chairman Hoeven and Vice Chairman Udall:

    I write on behalf of the Yocha Dehe Wintun Nation, a federally 
recognized Indian tribe in Brooks, California, to express our support 
for the nomination of E. Sequoyah Simermeyer for Chairman of the 
National Indian Gaming Commission (NIGC).
    The NIGC plays an important role in the implementation of federal 
law related to tribal gaming, particularly the Indian Gaming Regulatory 
Act, 25 USC section 2701, et seq., which was enacted to support and 
promote tribal economic development, selfsufficiency and strong tribal 
governments through the operation of gaming on Indian lands. The NIGC 
regulates tribal Class II and, in limited instances, Class III gaming 
operations throughout the United States.
    As a tribe that operates a gaming facility in California, it is 
especially important to us that a nominee to the NIGC exhibit a working 
knowledge of federal Indian law and policy related to gaming and have 
significant experience engaging with Indian tribes.
    We believe E. Sequoyah Simermeyer has the necessary experience, 
training, and expertise to excel as the NIGC's Chairman. His work as an 
Associate Commissioner on the NIGC has given him unique insight into 
the inner workings of the Commission and ability to immediately assume 
and excel in the responsibilities and role of the Chairman. 
Additionally, he has significant experience in federal Indian law and 
policy from his work as a staffer on the Senate Committee on Indian 
Affairs and in the Office of the Assistant Secretary--Indian Affairs at 
the Department of the Interior.
    E. Sequoyah Simermeyer is truly an exceptional candidate, his past 
experiences have prepared him well for this role and his expertise will 
be invaluable. We fully support his nomination for Chairman of the 
NIGC.
        Wile bo,
                                           Anthony Roberts,
                                                    Tribal Chairman
                                 ______
                                 
                         San Manuel Band of Mission Indians
                                                      July 22, 2019
Hon. John Hoeven,
Chairman;
Hon. Tom Udall,
Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.
RE: Support for E. Sequoyah Simermeyer to Serve as Chair of 
                      the National Indian Gaming Commission

Chairman Hoeven and Vice Chairman Udall:

    The San Manuel Band of Mission Indians is pleased to support the 
nomination of E. Sequoyah Simermeyer to serve as Chairman of the 
National Indian Gaming Commission (NIGC). We hope that you will 
consider our support and the reasons for it as you evaluate Mr. 
Simermeyer's nomination.
    San Manuel has interacted with Mr. Simermeyer in different 
capacities over the past decade. As you know, he served as policy 
advisor at the National Congress of American Indians then spent time 
with the Senate Committee on Indian Affairs before going to work for 
the Assistant Secretary for Indian Affairs in the U.S. Department of 
the Interior. In 2015, he was appointed to the NIGC where he has served 
since. Mr. Simermeyer gained significant respect and credibility across 
Indian Country through his work with tribal governments as an advocate 
and as a federal official.
    Because Mr. Simermeyer has spent time advising the largest tribal 
organization in the country and advising the highest ranking federal 
official responsible for Indian affairs, he has obtained a unique 
understanding and perspective on the federal government's relationship 
and responsibilities to tribal governments. During his tenure at the 
NIGC, Mr. Simermeyer has successfully upheld the letter and intent of 
the Indian Gaming Regulatory Act (IGRA) while being a leader on 
important issues facing tribal government gaming. His in-depth 
background in Indian law and policy made him instrumental in his role 
as an NIGC Commissioner because of his ability to respect the 
sovereignty of tribal governments while understanding the regulatory 
and jurisdictional complexities of tribal government gaming.
    When Mr. Simermeyer was appointed to the NIGC in 2015, he sought to 
strengthen the dialogue and relationships with all relevant gaming 
stakeholders in order to ensure regulatory compliance and the integrity 
of tribal government gaming. We have found Mr. Simermeyer to be 
diligent, deliberate, and fair. He does not shy away from having 
dialogue with tribal officials, even regarding tough topics, and 
understands the federal government's responsibility to consult with 
tribes. San Manuel believes that Mr. Simermeyer has contributed 
significantly to achieving goals of the NIGC and implementation of the 
IGRA. We look forward to continued progress at the NIGC under his 
leadership as Chairman.
    Because of his experience, wealth of knowledge regarding tribal 
issues, and balanced approach to tribal government gaming, San Manuel 
believes Mr. Simermeyer is uniquely qualified to serve as Chairman of 
the NIGC. We urge you to support his nomination. We also hope that the 
Committee and Senate will confirm Mr. Simermeyer's nomination as 
quickly as possible in order to ensure the position is not vacant for 
very long.
        Sincerely,
                                          Lynn R. Valbuena,
                                                         Chairwoman
                                 ______
                                 
      PECHANGA INDIAN RESERVATION Temecula Band of Luiseno 
                                            Mission Indians
                                        Temecula, CA, July 18, 2019
Hon. John Hoeven,
Chairman;
Hon. Tom Udall,
Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.
  Re: Nomination of E. Sequoyah Simermeyer for Chairman of 
                      the National Indian Gaming Commission

Dear Chairman Hoeven and Vice Chairman Udall:

    I write on behalf of the Pechanga Band of Luiseno Indians, a 
federally recognized Indian tribe in Temecula, California, to express 
our support for the nomination of E. Sequoyah Simermeyer for Chairman 
of the National Indian Gaming Commission (NIGC).
    The NIGC plays an important role in the implementation of federal 
law related to tribal gaming, particularly the Indian Gaming Regulatory 
Act, 25 U.S.C.  2701, et seq., which was enacted to support and 
promote tribal economic development, self-sufficiency and strong tribal 
governments through the operation of gaming on Indian lands.
    We believe Mr. Simermeyer has the necessary experience, training, 
and expertise to serve as the NIGC's Chairman. His work as Associate 
Commissioner with the NIGC has given him unique insight into the inner 
workings of the Commission and ability to immediately assume the 
responsibilities and role of the Chairman. Additionally, he has 
significant experience in federal Indian law and policy from his work 
as a staffer on the Senate Committee on Indian Affairs and in the 
Office of the Assistant Secretary--Indian Affairs at the Department of 
the Interior.
        Sincerely,
                                              Mark Macarro,
                                                    Tribal Chairman
                                 ______
                                 
                                         PASCUA YAQUI TRIBE
                                                      July 21, 2019
Hon. John Hoeven,
Chairman;
Hon. Tom Udall,
Vice Chairman,
Senate Committee on Indian Affairs,
Washington, DC.
  Re: Nomination of E. Sequoyah Simermeyer for Chairman of 
                      the National Indian Gaming Commission

Dear Senator Hoeven and Senator Udall:

    As Chairman of the Pascua Yaqui Tribe in Arizona, it is my 
privilege to extend our support for the nomination of Sequoyah 
Simermeyer's for the position of Chair for the National Indian Gaming 
Commission (NIGC). His longstanding work with the Senate Committee on 
Indian Affairs (SCIA), Department of the Interior, and his leadership 
experience as an NIGC Associate Commissioner makes his nomination a 
natural progression for his advocacy and work to continue benefitting 
Indian Country.
    Mr. Simermeyer's support of tribal self-determination and his 
advocacy for the Nation-to-Nation relationship between the United 
States Government and Native Americans is an essential component to 
tribal economic development. Mr. Simermeyer brings an in-depth 
understanding and practical knowledge of Indian gaming regulation 
issues; we look forward to working with him in his role as NIGC Chair.
    Thank you for your service on SCIA and for your attention to this 
matter.
        Sincerely,
                                           Robert Valencia,
                                                           Chairman
                                 ______
                                 
Response to Written Questions Submitted by Hon. Catherine Cortez Masto 
                       to E. Sequoyah Simermeyer
Federal Regulator's Role In Achieving Policy Objectives
    Question 1. Mr. Simermeyer, you state that your professional 
experience has demonstrated your ability to understand the federal 
regulator's role in achieving policy objectives relevant to gaming in 
Indian Country. However, there is very little in your Committee 
questionnaire responses, public statements, or writings while at NIGC 
that shed any light on your policy objectives. If confirmed, what are 
your policy objectives moving forward for the agency in an ever more 
connected world?
    Answer. As enacted, IGRA provides that the NIGC's efforts focus on 
the regulation of tribal gaming and the protection of tribal assets 
derived from gaming operations as a means to promote IGRA's policy 
objectives. Wherever gaming occurs on Indian land, it is the NIGC's 
role to regulate operations and protect tribal assets even as the 
industry may become more connected.
    IGRA's policy objectives include the operation of gaming by tribes 
as a means to promote tribal economic development, self-sufficiency, 
and strong tribal governments. To that end, if confirmed, I will 
emphasize opportunities to promote integrity, preparedness, 
accountability, and outreach in actions the NIGC takes that further 
develops NIGC policy where allowed by IGRA. As a matter of practice, 
the NIGC has not sought to insert itself in how tribes decide to pursue 
economic success in a more connected industry. IGRA does provide a role 
for the NIGC to ensure that as industry evolves a strong regulatory 
framework remains in place.
    In an ever more connected world, the NIGC has an opportunity to 
focus on both the Commission's own and tribal regulatory bodies' 
preparedness. The NIGC must anticipate the industry's direction by 
maintaining relationships with fellow regulators and an awareness of 
innovations that cause industry to be more connected, promote best 
practices in the use of and investment in technology to support sound 
regulation, and provide timely, clear and focused compliance efforts. 
An emphasis on preparedness includes the Commission's planning for the 
use of technology to monitor the industry and protect sensitive data as 
well as transparent deliberation of the Commission's standards for 
gaming operations' use of technology in light of an ever more connected 
world.
Missing and Murdered Indigenous Women
    Question 2. In September 2017, the Commission responded to a letter 
from some members of this committee to discuss the efforts ofNIGC in 
engaging and exploring all opportunities to address the crisis of 
missing and murdered Native American Women, and domestic violence. If 
confirmed, what are your specific policy goals and plans to combat this 
crisis?
    Answer. IGRA envisions that the NIGC will ensure standards are in 
place for the public health and safety of tribal gaming operations. If 
confirmed, I would seek out training and partnership opportunities to 
encourage tribal policy makers to assess local level risk in this area, 
ensure NIGC criminal referrals are made in a timely and effective 
manner, and explore opportunities in the tribal licensing process to 
help prevent future crimes. Through outreach to the public and the 
tribal gaming community, tribal gaming can leverage its strong 
regulatory structure and the leading corporate responsibility practices 
of the industry's operations to encourage awareness about this 
important issue.

    Question 2a. If confirmed, how will the Commission assist tribal 
gaming facilities and tribes in taking proactive steps to combat and 
address human trafficking and domestic violence?
    Answer. The NIGC has a statutory obligation to refer violations of 
federal, state, and tribal statutes to the appropriate law enforcement 
agency. We understand the importance and value of educating our 
employees on how to recognize human trafficking not only so that they 
are able to determine when a referral needs to be made, but also if and 
when there is a threat to the public health and safety. Moreover, we 
also understand the importance of educating tribal regulators and 
gaming operators across the country to be able to recognize the signs 
of trafficking so that it can be prevented at all levels of the gaming 
operation. Through the leadership and efforts of Vice-Chair Kathryn 
Isom-Clause, the NIGC has been fully engaged in raising awareness 
amongst NIGC staff and the tribal gaming industry about the signs of 
human trafficking. If confirmed as Chairman of the NIGC, I would 
continue and build upon the work in which the Commission is already 
engaged.
Human Trafficking And Domestic Violence
    Question 3. NIGC has the statutory obligation to refer criminal 
matters to law enforcement agencies, and according to the 2017 letter, 
``will implement intra-agency training to educate NIGC staff on the 
signs of human trafficking and domestic violence.'' As an Associate 
Commissioner, can you please provide an update on that training?
    Answer. The NIGC has provided human trafficking training in all of 
our regional training conferences for 2017 and 2018. Additionally, in 
cooperation with other agencies and experts, the NIGC has held the 
following training to educate on the signs of human trafficking:

  <bullet> February 13,2018--National Slavery and Human Trafficking 
        Guest Speaker spoke to NIGC staff at NIGC headquarters in 
        Washington, D.C. and was live-streamed to all other NIGC 
        Regions;

  <bullet> July 31, 2018--Human Trafficking Training at NIGC 
        headquarters in Washington, D.C. and live-streamed to all other 
        NIGC Regions; and

  <bullet> May 29,2019--Human Trafficking Webinar (FBI) at NIGC 
        headquarters in Washington, D.C. and was live-streamed to all 
        other NIGC Regions and Tribal operators and regulators.

    In conjunction with the National Center for Missing and Exploited 
Children, the NIGC has scheduled another webinar for the first week of 
September 2019 that will educate NIGC staff and tribal gaming 
regulators and operators on human trafficking and domestic violence.
    If confirmed, I will take seriously the NIGC's commitment to 
educating NIGC staff and industry stakeholders on how to recognize, and 
respond to human trafficking and domestic violence.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         E. Sequoyah Simermeyer
Financial Disclosures
    Question 1. During the hearing, you testified that your wife is a 
member of the Osage Nation. a. Does your spouse receive any royalties 
or mineral proceeds as a headright owner? If so, please update your 
Committee questionnaire to reflect these assets.
    Answer. No.

    Question 1a. Are your children also enrolled as members of the 
Osage Nation?
    Answer. My daughters are enrolled members of the Osage Nation. My 
son is not yet enrolled, but is eligible for enrollment.

    Question 1b. Are your children currently headright owners, or are 
they eligible to become headright owners or receive headright 
royalties?
    Answer. No.
Ethics
    Question 2. The Osage Nation operates several gaming facilities 
that are regulated under IGRA, and are thus subject to the National 
Indian Gaming Commission's regulatory purview. As such, if confirmed as 
Chair of the Commission, a potential for a conflict of interest exists 
if you were asked to weigh in on any regulatory or adjudicative matters 
regarding gaming facilities owned by the Osage Nation. However, your 
ethics agreement does not include any discussion or consideration of 
this issue. As an Associate Commissioner, are you currently recused 
from involvement in regulatory or adjudicative matters related to Osage 
Nation's gaming facilities?
    Answer. No. There have been no Osage Nation matters before the 
National Indian Gaming Commission (NIGC). If a matter arose, I would 
continue to seek guidance from federal ethics officials.

    Question 2a. As part of the ethics agreement associated with your 
nomination to serve as Chair of the Commission, did you discuss this 
potential conflict of interest with the Office of Government Ethics or 
your designated agency ethics official?
    Answer. Yes. I requested U.S. Department of the Interior (Interior) 
ethics officials to make an ethics determination on whether my wife and 
children's membership in the Osage Nation would create a potential 
conflict of interest if I were confirmed as the Chairman of the NIGC.

    Question 2a(i). If so, please provide the rationale used to 
determine whether or not your wife's tribal enrollment poses a conflict 
of interest for your nomination as Chair of the Commission.
    Answer. I informed Interior ethics officials that my wife and 
children are members of the Osage Nation, but do not receive a per 
capita distribution from the tribe. Neither my wife, nor my wife's 
family members, participate in Indian gaming and do not have any 
personal financial interests in the Osage Nation's gaming industry or 
gaming activities.
    It is my understanding that Interior ethics officials determined 
that, because my wife and children did not have a personal financial 
interest in the Osage Nation, the family's mere membership in the tribe 
did not pose a financial conflict of interest, per 18 U.S.C.  208. In 
addition, it is my understanding that Interior ethics officials 
determined that I did not have a ``covered relationship'' with the 
Osage Nation, as defined by 5 C.F.R.  2635.502(b)(l), which would 
trigger certain recusal obligations under the Standards of Ethical 
Conduct for Employees of the Executive Branch impartiality regulations. 
I intend to seek ethics guidance if I determine that the circumstances 
would cause a reasonable person with knowledge of the relevant facts to 
question my impartiality, per 2635.502(a)(2). Finally, it is my 
understanding that Interior ethics officials determined that Interior's 
supplemental ethics regulations do not otherwise address tribal 
enrollment as creating the potential for a conflict of interest.
    It is my understanding that Interior ethics officials consulted 
with the Office of Government Ethics and the NIGC's Office of General 
Counsel when making this determination.

    Question 2a(ii). If not, please confirm that you will seek Office 
of Government Ethics or your designated agency ethic's official's 
opinion on whether your wife's enrollment as a member of the Osage 
Nation will require you to recuse yourself from any regulatory and 
adjudicative matters regarding Osage Nation gaming facilities for the 
entirety of your term as Chair of the Commission.
    Answer. If a matter arose, I would continue to seek guidance from 
federal ethics officials.
Commission Composition
    Question 3. The Indian Gaming Regulatory Act (IGRA) states, ``Not 
more than two members of the Commission shall be of the same political 
party'' (25 U.S.C. 2704(b)(3)). For purposes of IGRA Section 2704(b 
)(3), please state your party affiliation.
    Answer. I am a registered Republican.

    Question 4. The IGRA also states, ``At least two members of the 
Commission shall be enrolled members of any Indian tribe'' (25 U.S.C. 
2704(b)(3)). The Act defines ``Indian tribe'' as ``any Indian tribe, 
band, nation, or other organized group or community of Indians which is 
recognized as eligible by the Secretary for the special programs and 
services provided by the United States to Indians because of their 
status as Indians, and is recognized as possessing powers of self-
government'' (25 U.S.C. 2703(5)). To your knowledge, has the Commission 
sought guidance from its Office of General Counsel, the Department of 
the Interior, or any other federal entity regarding the interpretation 
of this provision of the law? Specifically, whether the definition of 
``Indian tribe'' under the Act is limited to federally recognized 
Indian tribes or is inclusive of state recognized tribes. If so, please 
provide an approximate date on which the Commission issued this request 
and a summary of the guidance provided by the Department on the issue.
    Answer. According to a summary by the NIGC General Counsel, the 
NIGC, Interior, and the United States Department of Justice (DOJ) have 
taken the position that ``Indian tribe'' as used in IGRA, is limited to 
federally recognized Indian tribes. Most recently, this question was 
addressed when the Franks Landing Indian Community submitted a gaming 
ordinance to the NIGC for the Chairman's approval. The Chairman and the 
NIGC Office of General Counsel were aware that the Community's status 
as an ``Indian tribe'' pursuant to IGRA was at issue when they 
submitted the ordinance. Given the mandate ofNIGC regulations, which 
direct that the NIGC defer to the Interior Secretary for purposes of 
determining whether an entity qualifies as an Indian tribe under IGRA, 
on December 11, 2014, the NIGC referred the matter to the Secretary of 
the Interior for her determination.
    On March 6, 2015, the NIGC Chairman received the Assistant 
Secretary--Indian Affairs' and the Office of the Solicitor's opinion 
and determination that ``Indian Tribe'' as used in IGRA means a 
federally recognized Tribe, and that Franks Landing did not qualify as 
such. For future questions, the Assistant Secretary recommended the 
NIGC consult the list of federally recognized tribes published annually 
by Interior. Accordingly, the Chairman sent a letter to Franks landing 
refusing to review the ordinance on the grounds that ``Indian Tribe'' 
as defined in IGRA and NIGC regulations, was limited to federally 
recognized tribes. The Franks Landing Indian Community sued the NIGC 
and Interior over the Chair's refusal to accept the ordinance and the 
determination that the Community is not an ``Indian tribe'' as defined 
in IGRA. DOJ defended both decisions, arguing, in relevant part, that 
IGRA's definition of''Indian tribe'' requires federal recognition. Both 
the United States District Court for the Western District of Washington 
and the 9th Circuit Court of Appeals ruled in the United States' favor 
in the litigation.
Tribal-State Compacts
    Question 5. At the hearing, I asked why you did not sign two final 
decisions issued during your tenure as an Associate Commissioner. You 
stated that you filed a notation document outlining your rationale for 
voting against both decisions to issue an opinion on the matter. You 
further stated that the Commission's full notation document is a part 
of the administrative record available for the case. You then committed 
that you would confer with the Commission's Office of General Counsel 
regarding scope of access to this file and, if able, you would provide 
a copy of the document for the record. Please provide a copy of the 
notation document(s) reflecting your rationale for voting against the 
decisions. If, upon advice from the Commission's Office of General 
Counsel, you are unable to provide said document(s), please provide a 
summary of the rationale used by the Office to determine that the 
document(s) cannot be shared.
    Answer. Please see following documents:
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Question 6. One of the NIGC Chair's statutory duties is to approve 
class III tribal gaming ordinances or resolutions that conform to 
Tribal-State compacts. Growing evidence suggests some States are slow-
walking negotiations over Tribal-State compacts, in part due to the 
1Oth Circuit opinion in Pojoaque v. New Mexico. In light of these 
developments, if confirmed, how would you fully exercise your duties 
under IGRA to assist in promoting tribal economic development, self-
sufficiency, and strong tribal governments?
    Answer. If confirmed, I will take seriously and fully exercise my 
duty to further IGRA's purposes. The Act imposes a number of duties on 
the Chairman that help fulfill this obligation, including not only 
ordinance approvals, but also determining the suitability of proposed 
management contractors, ensuring tribes maintain the sole proprietary 
interest in their gaming operations, and ensuring that net gaming 
revenues are used to benefit the Tribe as a whole, rather than select 
individuals. I will continue to fulfill these important obligations.

    Question 7. Under your leadership, how would the NIGC work with 
Tribes to ensure that States negotiate in good faith to allow sports 
betting under existing gaming compacts, especially with States that 
have already authorized sports betting at commercial gaming facilities?
    Answer. IGRA requires a state to negotiate in good faith when it 
receives a request from a tribe to enter into a compact and that such 
compact may include gaming activity permitted in that state for any 
purpose by any person, organization or entity. As enacted, IGRA 
provides that the Secretary of the Interior, not the NIGC Chairman, is 
tasked by IGRA to review and approve Class III gaming compacts. In the 
event the Secretary pursues Class III gaming procedures, and if 
confirmed, I will continue to make NIGC available to serve any 
necessary and appropriate regulatory role.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
